CERTIFICATE OF SERVICE
I hereby certify that I electronically filed the foregoing Application for
Extension of Time with the Clerk of the Court for the Supreme Court of the United
States by using the CM/ECF system on December 24, 2019, and that copies were
sent via First Class mail to the following Respondents.
Kwame Raoul
Attorney General of Illinois
David Franklin
Solicitor General
Michael M. Glick
Criminal Appeals Division Chief
Garson S. Fischer
Assistant Attorney General
100 West Randolph Street, 12th Floor
Chicago, Illinois 60601-3218

ROBERT CORN-REVERE

